No.

IN THE SUPREME COURT OF THE UNITED STATES

KRYSTAL LYNN ALEXANDER - JASMIN, CHRIST, D.O.D.
PETITIONER,
vs.

THE CITY OF SANTA MONICA, SANTA MONICA POLICE DEPARTMENT,
OFFICER COCHRAN 3830, OFFICER JAUREGUI 3740, DOES 1-10, et al.
RESPONDENTS^)
PROOF OF SERVICE
I, Krystal Lynn Alexander - Jasmin, Christ, D.o.D., Pro Se Litigant, do declare that
on this 27th day of March, 2021, as required by Supreme Court Rule 29,1 have
served the enclosed PETITION FOR A WRIT OF CERTIORARI on every person
required to be served. The above document was sent by United States Postal Service
mail, properly addressed, and postage paid. A courtesy, electronic copy was sent to
the attached email addresses as well. Mailed to the United States Supreme Court Clerk at
"1 First Street, NE Washington, D.C. 20002", and the names and addresses of the
interested parties of this case, served as follows^

I'M

\ot?

l.

Santa Monica City Attorney’s Office! Michelle M. Hugard! George S. Cardona
1685 N. Main St., Santa Monica, Ca 90401
michelle.hugard@smgov.net! attornev@smgov.net

2.

Los Angeles County Board of Supervisors! Shelia Kuehl
Kenneth Hahn Hall of Administration #821
500 W. Temple St., Los Angeles, CA 90012
Sheila@bos.lacountv.gov

3.

Office of the County Counsel, County of Los Angeles
Kenneth Hahn Hall of Administration
500 West Temple Street #648, Los Angeles, CA 90012
Contact Us@counsel.lacountv.gov

4. STATE OF CALIFORNIA DEPARTMENT OF JUSTICE
OFFICE OF THE ATTORNEY GENERAL
P.O. Box 944255, Sacramento, CA 94244-2550
AGelectronicservice@doi .ca. gov
I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 27th day of March of the year 2021 by...

Krystal Lynn Alexander - Jasmin,
Christ, D.o.D.
Pro Se Litigant
300 W. Ocean Blvd., Apt. 6615
Long Beach, California 90802
(424)610-1442
realklai@gmail.com

